Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





  DRG 14 VALIDATION UPDATE:

  SPECIFIC CEREBROVASCULAR

 DISORDERS EXCEPT TRANSIENT

      ISCHEMIC ATTACKS





               AUGUST 199

                        OFFCE OF INSPECfOR           GEN
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95­
452, as amended , is to protect the integrity of the Department of Health and Human
Servces (HHS) programs as well as the health and welfare of beneficiaries served by
those programs. This statutory mission is carred out through a nationwide network
audits , investigations , and inspections conducted by three OIG operating components:
the Office of Audit Servces , the Offce of Investigations , and the Office of Evaluations
and Inspections. The OIG also informs the Secretary of HHS program and
management problems and recommends courses to correct them.

                           OFFCE OF AUDIT SERVICE
The OIG' s Office of Audit Servces (OAS) provides all auditing servces for HHS
either by conducting audits with its own audit resources or by overseeing audit work
done by others. Audits examine the performance of HHS programs and/or its
grantees and contractors in carrng out their respective responsibilties and are
intended to provide independent assessments of HHS programs and operations in
order to reduce waste , abuse , and mismanagement and to promote economy and
effciency throughout the Department.

                           OFFCE OF INTIGATIONS
The OIG' s Office of Investigations (01) conducts criinal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of 01 lead to criminal
convictions , administrative sanctions , or civil money penalties. The 01 also oversees
State Medicaid fraud control units which investigate and prosecute fraud and patient
abuse in the Medicaid program.

                   OFFCE OF EVALUATION AN INSPECfONS

The OIG' s Office of Evaluation and Inspections (OEI) conducts short- term
management and program evaluations (called inspections) that focus on issues of
concern to the Department , the Congress , and the public. The findings and
recommendations contained in these inspection reports generate rapid , accurate , and
up- to- date information on the effciency, vulnerabilty, and effectiveness of
departmental programs.


Amy L. Lockwood of BOTEC Analysis Corporation prepared this report under the
direction of Janet W. Knight , BOTEC Project Director , and David C. Hsia , OIG
Project Officer. Contract information and project   participants are listed in. Appendix
to this inspection.

Department of Health and Human Servces

        OFFICE OF

   INSPECTOR GENERAL





  DRG 14 VALIDATION UPDATE:

  SPECIFIC CEREBROVASCULAR

 DISORDERS EXCEPT TRANSIENT

      ISCHEMIC ATTACKS





          AUGUST 199 OEI- 12-89-O192

               EXECUTIVE SUMMAR 

PUROSE
This inspection reabstracted ona blided basis , the International Classifcation of
Diseases , 9th Edition, Cliical Modication (ICD- CM) codes from a sample of
Medicare discharges biled as diagnosis-related group (DRG) 14. It compared the
resulting DRG to the hospital DRG for reimbursement changes. The sample was
nationally representative and covered all of 1988,   the most recent data available.

Ths inspection updated two previous Offce of Inspector General (OIG) studies. For
1984 , the OIG found 15. 5 percent errors among 355 reabstractions , improperly over-
reimbursing hospitals by a projected $31.5 mion. For 1985 , the OIG found 15.
percent errors among 217 DRG 14 reabstractions , over-reimbursing hospitals an
estimated $56. 5 millon. This inspection used a parallel methodology to make these
studies statistically comparable.

FIINGS
DRG 14 coding error reduced : Of 145 discharges reabstracted for this inspection ,     1.4
percent had coding errors.   Ths proportion statistically significantly improved over the
15. 5 percent for 1984 and the 15. 8 percent for 1985. This proportion also statistically
significantly improved over the 14. 7 percent error rate previously reported for all 1988
DRGs. This inspection s low proportion of errors precluded identifng risks by
hospital or patient demography.


Financial impact of DRG 14 coding error reduced : Ths inspection projected that
DRG 14 under-reimbursed hospitals a nonsigncant $9. 3 mion. Ths result
contrasts with the statistically significant $31.5 milion over-reimbursement of the 1984
Inspection and $56. 6 milion over-reImbursement of the 1985 Study.


AGENCY COMMNT

In its June 10, 1992 comments to the draft of this inspection , the Health Care
Financing Administration (HCFA) concurred with the OIG' s fidings. The HCFA
made several techncal comments. Based on these comments , the OIG made changes
to this report. The full text of the HCF A comments appear as an appendix.
                                                                                                                                                                                          .....
                . .. .. .. .. .. .. .. .. .. .. .. .. .. .... .... ... ... ... ..................................... ... ................................................................................
                                                                                                                                                                                                       ..
                                                                                                                                                                                                       ..




             TABLE OF CONTENTS


EXECUTIV SUMMAY
TABLE OF CONTNTS. . .

INODUCTION. .
        BACKGROUND
        METHODOLOGY ..................................... 2
        SAMLE REPRESENTATIVENESS ....................... 2
FINDINGS
        DRG 14 CODING ERROR REDUCED.
        DRG 14 OVER- REIMURSEMENT ELIMINATED. . . . . . . . . ..
        REASONS FOR DRG CODING ERROR RAOM
ENDNOTES

Appendix 1: Project participants. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. 7

Appendix 2: ICD- CM codes in DRG 14 ......................... 9

Appendix 3: Sample representativeness

Appendix 4: DRG 14 coding errors by hospital and patient demography,
1984- 1988 ................................................

Appendix 5: Coding errors by hospital and patient demography, 1988 . .

Appendix 6: Financial effect of coding errors , 1985- 1988 . . . . . . . . . . . .

Appendix 7: HCFA comments
                           INTRODUCTION

BACKGROUN
As a principal diagnosis , 11 International Classification of Diseases , 9th Edition
Clinical Modification (ICD- CM) codes group to diagnosis-related group (DRG) 14.
These ICD- CM codes identify disorders involving strokes or cerebrovascular
accidents. A stroke occurs because of a blockage in the blood supply to the brain.
The subsequent loss of brain cells may cause weakness , paralysis , loss of sensation , and
cogntive disturbances. Three pathologies account for most of these blockages.

(Appendix 2).

THOMBOSIS              A blood clot forms in an artery of the brain.

EMBOLUS                A blood clot forms elsewhere in the body, usually the heart or
                       neck, and travels to the brain.

HEMORRHAGE A weak point in a brain artery allows blood to leak out.
Since 1985 , the Health Care Financing Administration (HCFA) has made no title
code , or hierarchy changes to DRG 14. Its Relative Weight has undergone downward
adjustment because of decreased resource consumption , from 1.3386      in 1985 to 1.2429
in 1988.


In previous studies from the Office of the ' Inspector General (OIG), U. S. Department
of Health and Human Servces (HHS), DRG 14 had a disproportionately high rate of
coding errors. Proper selection of ICD- CM codes would have grouped these
discharges to DRGs with lower average Relative Weights. Ths significant over-
reimbursement to hospitals , DRG 14' s high Relative Weight , and its apparent
vulnerabilty to miscoding invited OrG attention.

       In 1988,   the OIG released its inspection of 355 DRG 14 discharges from 10
       hospitals during 1984.   The reabstraction of medical records found a 15.5
       percent errors. Exrapolating the financial impact of these errors to the
       national population , the study estimated that DRG 14 errors caused $31.5
       milion in over-reimbursement to hospitals.

       In 1987, the OIG released its National DRG Validation Study, that reabstracted
       a sample of medical records representing all prospective- payment system
       discharges during 1985.     The 1985 Study included 217 DRG 14 reabstractions
       with 15. 8   percent errors. Upon national projection , these DRG 14 errors over-
       reimbursed hospitals an estimated $56. 5 milion.

This inspection updated the 1984 and 1985 data with medical records from calendar
year (CY) 1988,     the most recent data available. It used a parallel methodology to
make these studies statistically comparable.

METHODOLOY
This inspection randomly selected 145 DRG 14 discharges from 144 hospitals. The
study population consisted of the 331 550 DRG 14 Medicare reimbursed discharges for
CY 1988. The design excluded discharges from specialty institutions such as children
hospitals, tuberculosis units , and psychiatric facilties. It also excluded discharges in
Maryland and New Jersey, which the PPS stil exempted in 1988. It excluded bils for
pediatric, obstetric, and psychiatric DRGs (principally drug and alcohol rehabiltation
performed by a general hospital).

The OIG requested that hospitals send complete copies of the sampled medical
records to the OIG' s contractor, Health Data Institute (HDI) of Lexington
Massachusetts. It followed-up missing records and issued subpoenas to compel the
cooperation of four hospitals.

The OIG contracted with the American Medical Record Association (AMRA) to
reabstract the charts. The  AM      selected the ICD- CM codes supported by the
record , determined the principle diagnosis , and grouped to select the correct DRG.
To assure that the original ICD- CM codes and DRGs did not affect this
reabstraction , the AMRA coders conducted their work without knowledge of the
original ICD- CM codes and DRGs. The coders had instructions not to treat
marginal problems or honest differences in judgement about appropriate coding
DRG errors. This standard should have produced a conservative estimate of the
proportion of discharges having DRG errors. A series of reliabilty checks verified the
reproducibilty and accuracy of the AMRA coding.

BOTEC Analysis Corporation of Cambridge , Massachusetts (BOTEC) edited the
database , checked the sample s representativeness , and conducted statistical analyses
of the correlates and financial consequences of DRG 14 miscoding.

SAMLE REPREENTATI
The sample accurately represented the characteristics of the underlying population     of
discharges. (Appendix 3).

Distributed by hospital demography, it did not differ from the DRG 14 population in
bed size , teaching status , metropolitan location , or control. (Figure 1).

Distributed by patient demography, it did not differ by age , sex, or race. (Figure 2).
     ,--                     '--



                        Bed size                                  Teaching status

                                                                                              Teaing
                                                                  Teaing



                                                   Nontein
                                                                               Noeaing
           Sample                   Population            Saple                        Population


                        Loction                                          Control

                    Metrit




                    Nomepolt
                                                    Nonpr
                                                             r:        Prof



                                                                               Nonpr
                                                                                                     Prof




            Sample Population
                             Age
                                                             Saple                     Populaton
Figue 1: Sample representativeness by hospital demography, 1988
                                                                              Sex

                                           6674                                                Mal
                    6674                                           Mal



                    85+
                                                         Female
                                                                                    Femal
             Sample                Population                 Sample                    Population


                                                  Race

                                                                       Grop
                                                                  D White

                                                                     Black
                                                                  . Ot
                                                                  12 Unknow


                              Sample Population
Figue 2: Sample      representativeness by patient demography, 1988
                                   FINDINGS

 DRG 14 CODING EROR             REUCE Percent
 Of the 145 sample discharges ,only 1.4
 percent had coding errors that changed                                                     Yea
 their reimbursement from DRG 14.
                                                                                           1984
 This proportion significantly improved
                                                                                           1985
 over the 15. 5 percent errors for 1984

                                                                                           1988
 and the 15. 8 percent errors for 1985.

 (Figure 3).

 This inspection   s low proportion of

 errors precluded identifng risks by
                       DRG 14       All DRGs
 hospital or patientdemography.
 However, the improvement in coding           Figue 3: Proportion of discharges with DRG
 accuracy remained significant across all     coding errors ,     DRG 14 and all DRGs ,     1984­
 hospital and patient demographic             1988
 categories. (Appendix 4).

 This inspection s 1.4 percent DRG 14 errors also signficantly improved over the 14.
 percent errors previously reported for all 1988 DRGs. Additionally, DRG 14' s 14.3
  percent improvement in coding accuracy between 1985 to 1988 significantly exceeded
  all DRG' s 6. 1 percent improvement. This difference also remained significant across
/ all hospital and patient demographic categories. (Appendix 5).

 DRG 14 OVER-REIMURSEMENT
 ELIATED                                        $ milion





 The 145 sample discharges all originiHly
 received a Relative Weight of 1.2429

 equivalent to $3   797 (assuming an             -20

 average Standardized Amount of
                 -30
    055). This Relative Weight did not

 difer significantly from the 1.2521 case-

 mix index (CMI) after AMRA                      -SO


 reabstraction , equivalent to $3 825. In        -60

                                                            198        1985
        1988
 contrast , for 1985 DRG 14 reabstraction
 identified significant over-reimbursement

 to the hospitals. Hospital and patient             Financial impact of miscoding

                                              Figue 4:
 demography did not affect these results. DRG 14 , 1984- 1988

 (Figure 4).


 Extrapolating the 1988 CMI change to all 331 550 DRG 14 bils , miscoding under-
 reimbursed hospitals a nonsignificant $9.3 milion. This result differs significantly from
the $31.5 milion over-reimbursement reported for 1984 and the $56. 6     milion over-
reimbursement estimated for 1985. (Appendix 6).

DRG 14 accounted for 13. 3   percent of the $69.   8 milion in net under-reimbursement
for all DRGs in 1988. .

REONS FORDRG CODING ERROR RANOM
Only two of the sample discharges grouped to other DRGs after AMRA reabstraction.
One case failed to attest to the traumatic causation of the cerebral event while the
other appears to be a clerical error, substituting DRG 14 for DRG 148. No systematic
miscoding appeared among the sample s bils.

The sample size sufficed to establish that DRG 14 no longer has significant miscoding,
but could not identify any patterns by hospital or patient demography. To determine
demographic trends would require a sample of approximately 2, 500 medical records.
The nonsignificant proportion of coding errors does not warrant such a study.
                                        ENDNOTE

1. Purvs T, Carlson R , Fagan A, Jew M , Stewart S , Brown F, & Gannon C. Validation of
DRG 14. San Francisco , CA: HHS Office of Inspector General, 1988. Inspection no. OAI­
09- 86- 00052.

2. Delaney AM & Hsia DC eds. NationalDRG Validation Study.         Lexington ,   MA:Health
Data Institute , 1987. Contract HHS- l00- 87- 0015.

3. Knight JW & Hsia DC, eds. National DRG Validation Study Update: Technical Report.
Washington , DC: HHS Office of Inspector General , 1992. Inspection no. OEI- 12- 90- 00191.
   Appendix 1: Project participants

   OIG

   Cathaleen A Ahern , B.

   Evan J. Buckigham, B.A.

   David C. Hsia , J. , M. , M.

   Thomas F. Komaniecki , M.

   W. Mark Krshat, M.

   Linda M. Moscoe , B.A.

   Brian P. Ritchie , B.

   Barr L. Steeley
   John M. Traczyk, B.

   HCFA

   Timothy F. Greene, M. A., M.

   Stephen F. Jencks , M.

  Michael R. McMullan , M. B.A.

  Harr L. Savitt , Ph.

  Jeanette M. Smith , M. D., M.

  Malcolm A Sneen. B.S.

  RAN Corporation

  Haya P. Rubin , M.     , Ph.


  Baxer-Health Data Institute

  Patricia J. Baxer, R.

  Patricia Cassidy-Tsnosas , R.

  Annette M. Delaney, R. , M.

  Ellen B. Inghileri , R.

  Janet Mathews ,   AR.

  Laurie H. Moore, R.

  Claire Shannon , A.

  Michele A Wiese , B.


  AMRA

  Margret K. Amatayakul, M. B.A. , R.

  Mary Converse , R.




1. Now at Health Audit Servces , Ellcott City, MD.
2. Now at the Journal of the American Medical Association, Chicago , IL.

3. Now at Johns Hopkins Medical Institutions.

4. Ceased operations February 16, 1990.
   Nicholas J. Cotsonas , M.

   Linda Ertl , R.

   Rita M. Finnegan , R.

   Desla Mancila , A.

   Barbara Manny, R.

   Sonia Martiuk , R.

   Toula Nicholas, A.

   Charlotte Razor, R.

   LouAn Schraffenberger, R.

   Lyn Smetko , R.

   Dawn Smith, A.

   Joan Zacharias , A.


   BOTEC Analysis Corporation
   Geraldine M. Berenholz, R.
  Andrew H. Chalsma , B.
  David P. Cavanagh, M. , Ph.
  Janet W. Knight , R. , Ph.
  Amy L. Lockwood , B.A.

                                Contract information



  Contractor
  BOTEC Analysis Corporation
  1698 Massachusetts Avenue
  Cambridge , MA 02138

  Project Officer

  David Hsia, J. D., M. , M.
  Offce of Inspector General
  330 Independence Avenue
  Washington , D. C. 20201

  Contract
  HHS:- 100- 90- 0023
  Firm- fixed price contract
  $203 257




5. Outside contractor.
Appendix 2: ICD- CM codes in DRG

430 Subarachnoid hemorrhage
431 Intracerebral hemorrhage
432.     Nontraumatic extradural hemorrhage
432. 1   Subdural hemorrhage
432.     Intracerebral hemorrhage , not otherwse specified
434.     Cerebral thrombosis
434.     Cerebral embolism
434.     Cerebral artery occlusion , not otherwse specified
436      Cerebrovascular accident
437.     Nonruptured cerebral aneurysm
784.3 Aphasia

Appendix 3: Sample representativeness

Number (percent)     Population    Sample       Chi-square

Hos ital demo
 99 beds             645 (15.       29 (20.        , 2 df, P=0. 640
100- 299 beds    125 856 (38.       50 (34.5)
300+ beds        156 016 (47.       66 (45.

Metropolitan     249 967 (75.4)    108 (74.        , 1 df, P=0. 150
Nonmetropolitan 81 583 (24.         37 (25.

Teaching         131 367 (39.       54 (37.        , 1 df, P=0. 372
Nonteaching      200 183 (60.4)     91 (62.

Profit               954 (10.        14. (9.
      , 2 df, P=0. 020
Nonprofit        292 022 (89.      131 (90.3)

Patient demo
  64 years
           769 (4.         5 (3.4)   3.4, 3 df, P=0. 658
65- 74 years     109 174 (32.       36 (24.
75- 84 years     137 898 (41.6)     68 (46.

85 +   years         709 (21.3)     36 (24.

Male             139 865 (42.       51 (35.       , 1 df, P=0. 835
Female           191 685 (57.       94 (64.

White            280 550 (84.      131 (90.       , 3 df, P=0. 559
Black                600 (11.0)       9 (6.
Other                 144 (1.6)       2 (1.4)
Unknown               256 (2.         3 (2.

Total           331 550 (100.     145 (100.     not applicable

Appendix 4: DRG 14 coding errors by hospital and patient demography,                         1984- 1988

Proportion :t             1984                   1985                          1988
standard error (n)

Hospital demography
1..99 beds 20. 0:t 13. 3 (10)                 30. 8 :t 5. 3     (78)       3.4 :t 3.4 (29)
100- 299       beds 17. 1 :t 4. 2     (85)    13.4 :t 4. 2      (67)         0 :t 2. 0 (50)
300+ beds 14. 6 :t 2. 2 (260)                 12. 5 :t 3. 9     (72)         0 :t 0. 0 (66)

Metropolitan                                  13. 2   :t 3.4 (133)             9 :t 0. 9   (108)
Nonmetropolitan                               26. 1   :t 10. 1   (84)          7 :t 2. 7   (37)


Teaching                                      10. 5   :t 3. 5   (61)           0 :t 0. 0   (54)
Nonteaching                                   15.4 :t 3. 3      (156)          2 :t 1.5 (91)



Profit                                           9 :t 2.3 (16)              0 :t 0. 0 (14)
Nonprofit                                     16.4 :t 2. 7      (201)      1.5 :t 1.1 (131)

Patient demography
  65 years
                                       2 :t 2. 6     (14)           0 :t 0. 0 (5)
65- 74 years                                  13.5 :t 4. 7      (78)           6 :t 3. 9 (36)
75- 84 years                                  19. 9 :t 4. 3     (85)           0 :t 0. 0 (68)
85 +   years                                  21.9 :t 9.5 (40)                 0 :t 0. 0 (36)

Male                                          14. 2 :t 3. 9 (103)              0 :t 0. 0 (51)
Female                                        18. 2 :t 3. 6 (114)              1 :t 1.5 (94)

White                                                                      1.5 :t 1.1 (131)
Black                                                                       0 :t 0. 0 (9)
Other                                                                       0 :t 0. 0 (2)
Unkown                                                                      0 :t 0. 0 (3)

Total                  15. 1 :t 1.9 (355)     15. 8   :t 2. 6   (217)      1.4 :t 1.0 (145)

1988 difference        14. 1 (8. 0   to 20.   14. 3   (8.0 to 20.      6) NA
(95% CI)
Appendix 5: Coding errors by hospital and patient demography, 1988

Proportion :t          DRG                      All DRGs
standard error (n)

Hospital demography
  99 beds      3.4 :t 3.4 (29)               17. 0 :t 2. 0     (359)
100- 299 beds 2. 0:t 2. 0 (50)               14. 9   :t 1. 2   (893)
300+ beds 0. 0:t             0. 0 (66)       13. 9   :t 1. 0   (1199)


Metropolitan            9 :t 0. 9   (108)
   14. 9:t 0. 8 (1845)
Nonmetropolitan         7 :t 2. 7   (37)
    14.4 :t 1.4 (606)

Teaching                0 :t 0. 0   (54)
    15. 5 :t 1.1 (1008)
Nonteaching             2 :t 1.5 (91)
       14. 2 :t 0. 9 (1443)

Profit                  0 :t 0. 0 (14)
      17. 3   :t 2. 3   (272)
Nonprofit             1.5 :t 1.1 (131)
      14.4 :t 0. 8      (2179)

Patient demography
 65 years 0. 0 :t 0. 0 (5)                   16.4 :t 2.4 (232)
65- 74
     years 5. 6 :t 3. 9             (36)     14. 9 :t 1.1 (1007)
75- 84
     years 0. 0 :t 0. 0             (68)     14. 6 :t 1.2 (854)
85 + years 0. 0 :t 0. 0             (36)     13.4 :t 1.8 (358)

Male                    0 :t 0. 0   (51)     14. 5 :t 1.1 (1094)
Female                  1 :t 1.5 (94)        14. 9 :t 1.0 (1357)

White                 1.5 :t 1.1 (131)       14. 8:t 0. 8      (220)
Black                   0 :t 0. 0 (9)        14.4 :t 2. 6      (188)
Other                   0 :t 0. 0 (2)        14. 3:t 6. 0      (35)
Unknown                0 :t 0. 0 (3)            7 :t 6. 0      (23)


Total                 1.4 :t 1.0 (145)       14. 7 :t 0. 7 (2451)

Difference           13.3 (7.5 to 19.
(95% CI)
Appendix 6: Financial effect of coding errors, 1985- 1988

                DRG                                              All DRGs
                1985                      1988                   1988
CMI
Before         1.3386 :! 0. 0000         1.2429 :! 0. 0000      1.3080 :! 0. 0166
After          1.2383 :! 0. 0299         1.2521 :! 0. 1742      1.3104:! 0. 0186
Change            1003 :! 0. 0299          0092 :! 0. 1742        0024 :! 0. 0352
(95% CI)      (0. 0601 to 0. 1121)         2506 to 0. 2322)


Before        3542 :! 0                3797 :! 0              3996 :! 51
Afer         3277 :! 79              3825 :! 532              4003 :! 57
Change        265 :! 79                28 :! 532                7 :! 108

Bils 191 654                             331 550                506 361
$ milion change - 56.                          9.3                   69.

Difference
CMI                               1095                   0068
Mean $                     293
Total $ milion              60.                       60.4
Appendix 7: HCFA comments
                                                                               Health Care

            DEPARTMENT OF HEALTH & HUMAN SERVICES                              Financing Administration


       'r        I 0 19                                                        Memorandum
Dot'



From        Actg A dmini trator

            OIG Draf Report: ' 'DRG 14 Valdation Study Update: Specifc Cerebrovasular
Subject
            Disorders Oter Than Tranient Ischemic Attcks " OEI- 12- 89-O192

            Inpector General

            Ofce of the Secreta

                   We have reviewed the subject draf   report which   exaes the codg accuracy
            of prospective payment dicharges biled as Diagnosis Related Group (DRG) 14. In
            previous studies, the Ofce of Inpector General (OIG) sapled DRG 14 and found
            upcodg that resulted in over-reimburement to hospita of $31.5 mion in 198
            and $56. 5   mion in 1985.
                  The fidigs of th report show a signcat improvement in codg accuracy
            for DRG 14: from a litte over 84 percent in 1984 and 1985, to 98. 6 percent in 198
            The few remaig codg errors no longer result in sytematic over-reimburment of
            hospita. Consequentl, thi report conta no recommendations for fuher acton.

                   The Health Cae Financing Adminis tration is pleased with OIG' s fidigs.
            are in agreement with the report and have only a few brief comments for fuher
            consideration by OIG.

                   Than you for the opportty to review and comment on thi draf report.
            Please adve us whether you agree with our comments on the report at your earliest
            convenience.


            Attachment
                      Comments of tilealth Care Financing Administration (HCF A)

                        on OIG Draft Report: "DRG 14 Validation Study Update:

                             Specifc Cerebrovascular Disorders Other Than

                              Transient Ischemic Attacks. " OEI- 12- 89- 00192




Technca Comments


Pages 2 and 3. The series of graphs on these pages are dicult to read because of their
smal siz. We recommend increasing their siz in the fial report.

Page 4, ' DRG 14 Over- Reimburement                 Eliated" section. It is not clear how the
followig underlied statements were assumed:
       The 145 sample dicharges al                origial received a Relative Weight of
           2429,        equtYent to          797. Th Relatie Weight did not dier
       signcantl from                 the 1.2521 cae- mi index (CMI) afer AM re­
       abstraction,            equtYent to $3.

The relatie weight is a constat multiplier, but the multiplicad vares accrding to each
hospita' s specic porton. We understad there were 144 hospita in th study.
Therefore, the origi of these values should be explaied as an average, median mean
or actual figue, as appropriate.


Page 8, Appendix 1. Project parcipant Rita Finegan                 RR
                                                         is now a self-employed
consultat. Parcipant Delsa Mancila, ART, is no longer employed by          her    AM
curent    position is not known.
                                                                             ' / / ;	   ,(­


                                                                                        9203301330
"""" O

                                                                OBA: ACTION

                 DEPARTMENT OF HEALTH &. HUMAN SERVICES cc :Hudson;AAO :AACbtf.ce of Inspector General
                                            OLP:MB:OPHC:AA:AAC: Means; Somsak; Schmidt; Thomas

4"'"
                        p30	
                                                    ADMINISTRATOR SIG. DUE                    4/2SIIQ   Memorandum
   Date

       From
                 Richard P. Kusserow 


                 Inspector General 	
                                          12-
                                                                        1Z1
                 OIG Draft Report: 
            DRG 14      alidation study Update: Specific
       Subject   Cerebrovascular Disorders other Than Transient Ischemic
                 Attacks, " OEI-12-89-00192
                 J. Michael Hudson

                 Acting Administrator

                 Health Care Financing Administration


                 Attached is a draft inspection report on the coding accuracy

                 of prospective payment discharges billed as diagnosis-related

                 group (DRG) 14.
                 In two previous studies, the Office of Inspector General (OIG)
                 reabstracted the ICD-9-CM codes from samples of DRG 14 bills
                 on a blinded basis and found upcoding that over-reimbursed
                 hospitals $31. 5 million in 1984 and $56. 5 million in 1985.
                 The attached report updates the previous studies by applying
                 the same methodology to a nationally representative sample of
                 1988 discharges, the most recent year for which data were
                 available.
                 These inspections find a significant improvement in DRG cOding
                 accuracy from 84. 5 percent in 1984 and 84. 2 percent in 1985 to
                 98. 6 percent in        1988.
                                         The few coding errors no longer
                 systematically over-reimburse the hospitals. This report,
                 therefore, makes no recommendations.

                 We would appreciate receiving your comments on the draft
                 report within 30 days of the date of this memorandum. The OIG
                 briefed your staff about these inspections on October 31,
                 1991.
                 If you have any questions about this report, please call me or

                 Michael Mangano, Deputy Inspector General for Evaluation and

                 Inspections, or have your staff contact Penny Thompson at

                 FTS 646-3138.
                 Attachment
Departent of Health and Human Servces





  DRG 14 VALIDATION UPDATE:

  SPECIFC CEREBROVASCULA

DISORDERS EXCEPT TRSIENT

                ISCHEMIC ATIACKS



             NOTCE - THIS DRA        RESTICT TO       OFFCIA USE

This doumnt is a drft repo of th Ofce of      Insctor General and is subject to
reion; therefore, reciient of th
other than for offcial
all copies thereof remain
                         re  and commnt
                                                                        purses
                                   drft shoul not diclose it contents for
                                          unr   any cirumances. This draft and
                          th propert of, and mut be retued on demand to, the
Offce of Inspector GeneraL

MACH 199                                                        OEI-   12-8192
                 EXECUTIVE SUMMAR
PURE
Ths inspection reabstracted on a blided basis, the International Cassifcation of
Diseases, 9th Edition, Clcal Modifcation (ICD- CM) coes from a sample of
Medicae dicharges biled as diagnosis-related group (DRG) 14. It compared the
resulting DRG to the hospita DRG for reimburment changes. The saple was
nationall representative and coered al of 1988 the most recnt data avaiable.


Th inpection updated two prevous Ofce of Inpector Genera (OIG) studies. For
1984, the OIG found 15. 5 percent errors among 355 reabstractions, improperly over-
reimbursing hospitals by a projected $31.5 miion. For 198, the OIG found 15.
percent errors among 217 DRG 14 reabstractions, over-reimbursing hospitals an
estimated $56. 5 millon. Ths inspection used a parallel methodology to make these
studies statistically comparable.

FIINGS
DRG 14 codini error reduced : Of 145 discharges reabstracted for this inspection,   1.4
percent had coding errors. Ths proportion statistically signifcantly improved over the
15. 5   percent for 1984 and the 15. 8
                                     percent for 1985. This proportion also statistical1y
significantly improved over the 14. 7 percent error rate previously reported for all 1988
DRGs. This inspection s low proportion of errors precluded identig risks by
hospital or patient   demography.
Financial impact of DRG 14 codini error reduced : This inspection projected that
DRG 14 under-reimbursed hospitals a nonsignifcant $9.3 mion. Ths result
contrasts with the statistically signcant $31.5 mion over-reimbursement of the 1984
Inspection and $56. 6 mion over-reimbursement of the 1985 Study.
